No. 21-164
IN THE

Supreme Court of the United States
TRUSTEES OF THE NEW LIFE IN CHRIST CHURCH,
Petitioners,
v.
CITY OF FREDERICKSBURG, VIRGINIA,
Respondent.

CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and
that on this 22nd day of September, 2021, I caused three copies of the Reply Brief for
Petitioners to be served by third-party commercial carrier on the counsel identified
below, and caused an electronic version to be transmitted to the counsel identified
below, pursuant to Rule 29.5 of the Rules of this Court. All parties required to be served
have been served.
R. Lucas Hobbs
Steven R. Minor
Elliott Lawson & Minor, P.C.
230 Piedmont Avenue
Suite 300
Bristol, VA 24201
(276) 466-8400
lhobbs@elliottlawson.com
sminor@elliottlawson.com
Counsel for Respondent

/s/ Allyson N. Ho
Allyson N. Ho

